HHS/OIG, Audit - "Audit of Connecticut's Medicaid Payments for Skilled
Professional Medical Personnel Reimbursed at Enhanced Rates October 2002 -
September 2003," (A-01-05-00003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Connecticut's Medicaid Payments for Skilled Professional Medical
Personnel Reimbursed at Enhanced Rates October 2002 - September 2003," (A-01-05-00003)
September 19, 2005
Complete Text of
Report is available in PDF format (177 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective
was to determine whether the Connecticut Department of Social Services (the
State agency) properly claimed Federal Medicaid funding at the enhanced rate for
eligible skilled professional medical personnel.  For Federal fiscal year 2003,
the State agency claimed enhanced Federal reimbursement of $1,911,380.  Before
our on-site review, the State agency processed adjustments totaling $742,517 to
deduct costs that were not allowable for enhanced Federal financial
participation. The remaining $1,168,863 that the State agency claimed in
enhanced reimbursement for skilled professional medical personnel was allowable
at the enhanced rate.  As a result, we have no further recommendations.